LT
vane (SOCKLE

: E-Mail Address:

Omaha, Nebraska 68102-1214 Legal B r ie fs contact@cocklelegalbriefs.com
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,

Vv.
AGNES MORRISSEY-BERRU,
Respondent.

ST. JAMES SCHOOL,
Petitioner,
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE
FOR THE ESTATE OF KRISTEN BIEL,
Respondent.

 

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE NATIONAL
EMPLOYMENT LAWYERS ASSOCIATION, THE EMPLOYEE RIGHTS ADVOCACY
INSTITUTE FOR LAW & POLICY, AND THE AMERICAN ASSOCIATION FOR JUSTICE AS
AMICI CURIAE IN SUPPORT OF RESPONDENTS in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 6051 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1 Ith day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-Stte of Hobraska ) draw Ke CLL
RENEE J. GOSS . 4 .
My Comm. Exp. September 8, 2023
Notary Public

Affiant 39523
